TN

C@OCKLE

2311 Douglas Street Le ga l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-
YUZEF ABRAMOV,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

BECKY S. JAMES
Counsel of Record

JAMES & ASSOCIATES
23564 Calabasas Road
Suite 201
Calabasas, CA 91302
(B10) 492-5104
bjames@jamesaa.com

Counsel of Record for
Petitioner Yuzef Abramov

Subscribed and sworn to before me this 23rd day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

Ld » EC bli Oude hk, Ghhy

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38537
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
